SEMIANNUAL REPORT   OF THE   INSPECTOR GENERAL                                   FEDERAL COMMUNICATIONS
COMMISSION




TABLE OF CONTENTS


I.            INTRODUCTION....................................................................................... 2

II.           AUDITS ...................................................................................................... 4

III.          INVESTIGATIONS.................................................................................... 7

IV.           MANAGEMENT AND ADMINISTRATION. . . . . . . . . . . . . . ….... . . . 10

V.            SPECIFIC REPORTING REQUIREMENTS OF SECTION 5(a)                              .......
              OF THE INSPECTOR GENERAL ACT ................................................... 12


ATTACHMENTS

A.            TABLE I: OIG AUDIT REPORTS WITH QUESTIONED COSTS....... 15

B.            TABLE II: OIG AUDIT REPORTS WITH RECOMMENDATIONS
              THAT FUNDS BE PUT TO BETTER USE ............................................. 16




_________________________________________________________________
APRIL 1995 - SEPTEMBER 1995                                                                                        PAGE 1
SEMIANNUAL REPORT   OF THE   INSPECTOR GENERAL                 FEDERAL COMMUNICATIONS
COMMISSION




INTRODUCTION
The Federal Communications Commission (FCC) is an independent regulatory agency
exercising authority delegated to it by Congress under the Communications Act of 1934, as
amended. The FCC is charged with regulating interstate and international communications
by radio, television, wire, satellite and cable. The FCC's jurisdiction covers the fifty states,
the District of Columbia, and U.S. possessions. The mandate of the FCC under the
Communications Act is to make available to all people of the United States a rapid, efficient,
nationwide, and worldwide wire and radio communication service. The FCC performs four
major functions to fulfill this charge:
        spectrum allocation;
        creating rules to promote fair competition and protect consumers where
         required by market conditions;
        authorization of service; and
        enforcement.

As of September, 1995, the FCC had 2,128 full-time equivalent employees (FTEs), most of
whom are in Washington, D.C. space. FCC Field Offices are located throughout the United
States.

The Chairman and four additional Commissioners are appointed by the President and
confirmed by the Senate. Reed E. Hundt has been the Chairman of the FCC since
November 1993. The four Commissioners are James H. Quello, Andrew C. Barrett,
Rachelle B. Chong, and Susan P. Ness.

On August 17, 1995, in an effort to streamline the Commission, the Chairman proposed a
field office restructuring plan that would result in the closure of nine attended frequency
monitoring stations and three additional monitoring sites located at FCC field offices. The
plan calls for the replacement of these stations with a national automated monitoring
network whose network central station will be located at the existing Laurel/Columbia,
Maryland facility. The plan also calls for the closure of nine of the 25 existing field offices
as well as three of the six regional offices. Two technical staff members will continue to be
assigned as resident agents in the nine locations in which field offices will be closed.
Subsequent to the close of this reporting period, on October 13, 1995, the Commission voted
4-1 to support the planned organizational restructuring. Overall, authorized staffing within
the effected Bureau, the Compliance & Information Bureau (CIB), will decrease by about

_________________________________________________________________
APRIL 1995 - SEPTEMBER 1995                                                              PAGE 2
SEMIANNUAL REPORT   OF THE   INSPECTOR GENERAL                FEDERAL COMMUNICATIONS
COMMISSION


one-third, from 384 to 254 positions as a result of the restructuring of field operations. The
plan will be transmitted to the House and Senate Appropriations Committees for their
approval. Upon approval the FCC will begin required negotiations with the Union
representing the Commission's employees regarding the implementation and impact of the
plan.

The Office of Inspector General has dedicated itself to assisting the Commission as it
continues to improve its efficiency and effectiveness. The Inspector General reports directly
to the Chairman. The OIG is located in Room 752 in the FCC headquarters building at 1919
M Street, N.W., Washington, D.C. 20554. The Office of Inspector General (OIG) is staffed
by the Inspector General and four staff members: three auditors and a staff assistant who
serves as the hotline technician. H. Walker Feaster was appointed Acting Inspector General
on November 14, 1994, and continues to serve in an acting capacity as of the date of this
report. On May 25, 1995 the Commission issued a vacancy announcement for the Inspector
General position. The vacancy announcement closed on June 23, 1995. Scheduling of
interviews is currently underway.

On May 6, 1995, Robert G. Andary, who served as the Counsel to the Inspector General and
Director of Investigations for this office, accepted the position of Inspector General of the
Federal Labor Relations Authority (FLRA). To date the OIG has not made a selection to
replace Mr. Andary. Pending this personnel action, Paul Brachfeld has been designated as
the Acting Director of Investigations while continuing in his ongoing capacity as the
Director of Audits.

This report includes the major accomplishments and general activities of the OIG during the
period May 1, 1995, through September 30, 1995, in accordance with Section 5 of the
Inspector General Act of 1978, as amended 5 U.S.C. App. 3, § 5.




_________________________________________________________________
APRIL 1995 - SEPTEMBER 1995                                                            PAGE 3
SEMIANNUAL REPORT   OF THE   INSPECTOR GENERAL                 FEDERAL COMMUNICATIONS
COMMISSION




AUDITS

OVERVIEW
One audit report was issued by the Inspector General during this reporting period. In other
audit activity, OIG auditors dedicated a significant amount of hours towards performing
survey work and subsequent audit fieldwork as relates to Fiscal Year (FY) 1994 Spectrum
Auction implementation costs. In performing this complex audit, specific emphasis was
placed on (1) examining the system implemented by the Commission to accumulate and
report auction related accounting information; (2) validating the timeliness and accuracy of
the information that was reported; and (3) identifying areas where improvements could be
made. The audit staff projects that the final audit report will be issued in the latter part of
November, 1995.

During this reporting cycle, OIG auditors facilitated a meeting and subsequent working
relationship between the Commission and the Financial Crimes Enforcement Network
(FINCEN), Department of the Treasury. OIG representatives serving on a multi-
Office/Bureau task force had become aware of the requirements placed on the FCC to
perform investigative analysis pertaining to the spectrum auction program. Specifically
responsibilities resided within the Commission to determine the validity of entities claiming
to meet the definition of a small business or minority owned enterprise. Such prospective
bidders could obtain favorable bidding and build-out terms from the Commission. The task
force was exploring the mechanisms Commission staff could use in performing these
investigations and the likely costs associated with accessing private data networks. OIG
staff, who were aware of the unique capabilities of FINCEN and FINCEN's charter to assist
Federal agencies in law enforcement related matters, contacted officials at FINCEN to lay
the groundwork for a constructive and economical relationship between the FCC and
FINCEN. Through the arrangement that was arrived at, FCC staff in the Wireless
Telecommunications Bureau and Compliance & Information Bureau will be able to utilize
FINCEN resources in order to access information to be used in investigating potential
irregularities pertaining to spectrum auction bidders.

OIG auditors also continued to assist management in its conversion to an off-the-shelf,
widely used financial system, the Federal Financial System, which went on-line October 1,
1995.
_________________________________________________________________
APRIL 1995 - SEPTEMBER 1995                                                             PAGE 4
SEMIANNUAL REPORT   OF THE   INSPECTOR GENERAL                 FEDERAL COMMUNICATIONS
COMMISSION




SIGNIFICANT AUDIT ACTIVITY
1.REPORT ON THE SPECIAL REVIEW: INTERNET PENETRATION ANALYSIS

       The report was issued May 17, 1995.

As part of the on-going OIG effort to ensure protection of the Commissions information
resources, this office performed an Internet penetration analysis. The objective of this
analysis was to attempt to penetrate the internal Federal Communications Commission
(FCC) network from an external source through the internet, identify any potential
weaknesses in the system security infrastructure, and document the controls in place to
prevent a successful penetration.

During the review, auditors used readily available software tools to attempt the exploitation
of known weaknesses in internet connections. Among the tools used in this off-site review
was the Systems Administrator Tool for Analyzing Networks (SATAN). SATAN was
developed as a security tool which systems administrators could use to identify particular
vulnerabilities in their networks. However, once released into the public domain on April 7,
1995, SATAN became another tool which could be employed by hackers to attack systems.

In general, the review identified that the Commission had established effective controls over
access to the internal FCC network from external sources. These controls included the use
of a firewall to manage data traffic, control over the use of potentially risky software utility
products, and patches to commonly exploited software weaknesses.

The auditors identified four areas where improvements in controls were recommended.
These recommendations were documented in the Internet Penetration Report (OIG Report
Number 95-3). Due to the sensitive information contained in this report which could be
used in a manner inconsistent with the normal operations of the Commission, distribution of
this report was restricted to persons on a need to know basis.


Deployment of Computer Security Software- While performing the Internet Penetration
Review, the auditors identified other areas of concern pertaining to internal network security.
In order to assess the degree of risk, the auditors obtained a powerful software program

_________________________________________________________________
APRIL 1995 - SEPTEMBER 1995                                                              PAGE 5
SEMIANNUAL REPORT   OF THE   INSPECTOR GENERAL               FEDERAL COMMUNICATIONS
COMMISSION


specifically developed to assess the security configuration of file servers using Novell's
Netware operating system. On June 19, 1995, this program was loaded onto a selected
server containing sensitive FCC data. The application was designed to analyze six necessary
elements of an effectively secured Novell file server as follow:

       •      User account restrictions
       •      Passwords
       •      Access control
       •      Systems monitoring
       •      Data integrity
       •      Data confidentiality

Test results reflected weaknesses in the FCC's network security configuration. For example,
network users were not required to use passwords of substantial length nor required to
change their passwords on a reasonable periodic basis. In fact 2% of users did not have
passwords and simply used a Guest login, while 33% of users had easily guessed passwords.

The information provided by this report was used by the Commission's Computer Security
Officer to support the implementation of a more robust security configuration. On
September 20, 1995, the Commission implemented the new security configuration.
Following implementation, testing was again conducted using the software product obtained
by the OIG. Test results indicated an increase in the overall Novell security posture.


Credit Card Program- In performing audit survey work related to a planned audit of FCC
credit cards use, OIG auditors identified that the U.S. Postal Service had developed a
software referred to as ISIS (Inspection Service IMPAC Scanner). This software, which is
free to other government agencies, could be employed to more efficiently and effectively,
analyze credit card transactions. Specifically, the software can track individual credit card
transactions by merchant name, merchant city, date of transaction and dollar value or range
of dollar values. Upon identifying this software and its capabilities, a determination was
made to issue a memorandum to the Managing Director, notifying him of the existence of
this tool and at the same time terminating further audit activity by this office. That
Managing Director has initiated activity towards obtaining and subsequently employing the
ISIS software.



_________________________________________________________________
APRIL 1995 - SEPTEMBER 1995                                                           PAGE 6
SEMIANNUAL REPORT   OF THE   INSPECTOR GENERAL                FEDERAL COMMUNICATIONS
COMMISSION




INVESTIGATIONS


OVERVIEW
Investigative matters pursued by this office are generally initiated as a result of complaints
alleging fraud, waste, abuse, corruption or mismanagement by FCC employees, or affecting
the programs or operations of the Commission. Upon receipt of a complaint which alleges
an administrative or criminal violation, the OIG usually conducts a preliminary inquiry to
determine if an investigation is warranted. Investigations may involve possible violations of
regulations regarding employee responsibilities and conduct, Federal criminal law, and other
regulations and statutes pertaining to the activities of Commission employees. Investigative
findings may lead to criminal prosecution, civil prosecution, or administrative action.

On August 1, 1995, the FCC OIG instituted a formal hotline. All FCC staff were notified of
the establishment of the hotline and a Public Notice was issued by the Commission. The
hotline number, 202-418-0473, is serviced by the Special Assistant to the Inspector General.

INVESTIGATIVE ACTIVITY

During this reporting period, OIG investigative activity focused on two major investigations,
one of which remains in an open status at this date pending a determination on the part of the
Justice Department. A brief synopsis of these investigations is presented below.


Potential Violation of 18 U.S.C. § 207 (a) (2)
Status: Open

On November 4, 1994, the OIG was made aware of a possible violation of the two-year
post-employment restriction of 18 U.S.C. § 207 (a) (2) by a former high level FCC
employee. This matter was initially developed and forwarded on December 5, 1994, to the
Public Integrity Section, Criminal Division, Department of Justice. During this reporting
period, OIG investigative staff conducted detailed interviews with FCC and former FCC
officials in order to obtain information pertinent to this investigative matter. The

_________________________________________________________________
APRIL 1995 - SEPTEMBER 1995                                                            PAGE 7
SEMIANNUAL REPORT   OF THE   INSPECTOR GENERAL                  FEDERAL COMMUNICATIONS
COMMISSION


investigation remains in an open status as of the close of this reporting period.


Potential Procurement Irregularities Pertaining to Spectrum Auctions
Status: Closed
In response to allegations received by the OIG, an investigation of procurement actions
involving the FCC's Spectrum Auction Program was undertaken by this office. Specifically,
the confidential allegation involved (1) the undertaking of improper contracting procedures
by FCC employees and, (2) an attempt by an FCC contractor to direct additional contractual
activity to the firm he was employed with. Results of our investigation found no basis to
support the aforementioned allegations. However, in a memorandum to the Chief, Wireless
Telecommunications Bureau (WTB) dated July 10, 1995, the Inspector General noted that
during the investigation, OIG staff identified that an employee within WTB had provided an
FCC contractor with access to her login and password to the FCC computer system on the
date of his arrival to the FCC. Senior officials within WTB acted expeditiously to address
this internal control weakness by meeting with the Computer Security Officer and educating
the staff as to proper password control measures. The investigation has been formally closed.



Other Investigative Issues

z      OIG staff provided assistance and liaison to investigators from the Federal Deposit
and Insurance Corporation (FDIC) during this reporting period. FDIC investigators
requested assistance in obtaining Mass Media Bureau documents and conducting interviews
pertinent to filings made at this Commission by individuals who were under investigation by
the FDIC.

z      OIG staff investigated an allegation that FCC employees received payoffs which
resulted in their failure to properly investigate complaints directed against a radio station.
OIG staff determined that the allegation lacked basis and the investigation was closed.

z       OIG staff investigated allegations that an FCC employee was deliberately leaking
information on pending FCC actions to an individual external to the Commission. In
reviewing the allegation, this office determined that sufficient evidentiary matter did not
exist to support further action on the part of this office.


_________________________________________________________________
APRIL 1995 - SEPTEMBER 1995                                                              PAGE 8
SEMIANNUAL REPORT   OF THE   INSPECTOR GENERAL               FEDERAL COMMUNICATIONS
COMMISSION




z       OIG staff provided assistance and documentation to the Superior Court of the District
of Columbia, to be used in the prosecution of an individual who had previously filed a
complaint with the OIG regarding the Mass Media Bureau's handling of an application for
the transfer of a radio station.




_________________________________________________________________
APRIL 1995 - SEPTEMBER 1995                                                           PAGE 9
SEMIANNUAL REPORT   OF THE   INSPECTOR GENERAL              FEDERAL COMMUNICATIONS
COMMISSION




MANAGEMENT AND ADMINISTRATION


H. Walker Feaster III was appointed Acting Inspector General on November 14, 1994, and
continued to serve in that capacity during the reporting period. Mr. Feaster has served the
Commission since 1974 in various positions within the Office of Managing Director and
within the former Private Radio Bureau. Since 1990, he served as the Associate Managing
Director for Program Analysis.

In April 1995, the Counsel to the Inspector General and Director of Investigations, Robert
Andary, accepted a position as Inspector General of the Federal Labor Relations Authority,
effective May 8, 1995. Mr. Andary had served the OIG since May 1992.

On August 11, 1995, the Acting Inspector General submitted the FY 1997 Budget Resource
Request for the OIG. Office of Management and Budget (OMB) Circular A-11, Section
15.11 provides that "each agency designated to establish an Office of Inspector General in
the Inspector General Act Amendments of 1988 will submit information on budget authority
and FTE levels for PY through BY for its Office of Inspector General." In the OIG request
to the Chairman, the office requested two additional positions over the current FTE level.
The OIG presently has the same number of FTEs as existed in FY 1992 prior to the
establishment of a new Bureau to address new mission requirements (most notably in the
spectrum auction program), significant internal FCC automation initiatives, National
Performance Review and the Government Performance Review Act activities and
requirements. On August 29, 1995, the OIG was informed by the Managing Director that
"the Chairman will be submitting a level staffing request for the entire Commission
including the IG."

On June 30, 1995, OIG staff presented a briefing to Compliance & Information Bureau
(CIB) staff from around the country. The briefing was taped and will be provided to FCC
staff throughout the country. The briefing focused on why the FCC has an OIG, the mission
the OIG performs, and how the OIG can provide the FCC staff with unique audit and
investigative tools and resources. During a free flowing question and answer period, OIG
staff responded to questions and concerns, some which are unique to personnel serving in
field locations. In the coming months, the OIG intends to offer similar sessions to other
Bureaus and Offices within the FCC.

_________________________________________________________________
APRIL 1995 - SEPTEMBER 1995                                                          PAGE 10
SEMIANNUAL REPORT   OF THE   INSPECTOR GENERAL              FEDERAL COMMUNICATIONS
COMMISSION




During this reporting period, OIG auditors continued to work with management in the
implementation of the new financial accounting system and have participated in ongoing
training exercises. An OIG auditor attended a detailed on-site working session at the FCC's
provider agency, the Bureau of Reclamation.




_________________________________________________________________
APRIL 1995 - SEPTEMBER 1995                                                          PAGE 11
SEMIANNUAL REPORT   OF THE   INSPECTOR GENERAL               FEDERAL COMMUNICATIONS
COMMISSION




SPECIFIC REPORTING REQUIREMENTS OF SECTION 5(a) OF THE
INSPECTOR GENERAL ACT


       The following summarizes the Office of Inspector General response to the twelve
specific reporting requirements set forth in Section 5(a) of the Inspector General Act of
1978, as amended.

1. A description of significant problems, abuses, and deficiencies relating to the
administration of programs and operations of such establishment disclosed by such
activities during the reporting period.

       No such problems, abuses, or deficiencies were disclosed during the reporting period.

2. A description of the recommendations for corrective action made by the Office during the
reporting period with respect to significant problems, abuses, or deficiencies identified
pursuant to paragraph (1).

       No recommendations were made. See the response to paragraph (1).

3. An identification of each significant recommendation described in previous semiannual
reports on which corrective action has not been completed.

       No significant recommendations remain outstanding.

4. A summary of matters referred to prosecutive authorities and the prosecutions and
convictions which have resulted.

       An investigation which was opened during the previous reporting period and referred
to the U.S. Department of Justice pursuant to section 4(d) of the Inspector General Act
remains in an open status. The investigation involves a potential violation of post-
employment restriction of 18 U.S.C. § 207 (a) (2).

5.     A summary of each report made to the head of the establishment under section
(6)(b)(2) during the reporting period.

_________________________________________________________________
APRIL 1995 - SEPTEMBER 1995                                                           PAGE 12
SEMIANNUAL REPORT   OF THE   INSPECTOR GENERAL                 FEDERAL COMMUNICATIONS
COMMISSION




       No report was made to the Chairman of the FCC under section (6)(b)(2) during the
reporting period.

6. A listing, subdivided according to subject matter, of each audit report issued by the
Office during the reporting period, and for each audit report, where applicable, the total
dollar value of questioned costs (including a separate category for the dollar value of
unsupported costs) and the dollar value of recommendations that funds be put to better use.

       Each audit report issued during the reporting period is listed according to subject
matter and described in part III, above.

7. A summary of each particularly significant report.

       Each audit report issued during the reporting period is summarized in part III, above.

8. Statistical tables showing the total number of audit reports with questioned costs and the
total dollar value of questioned costs.

       The required statistical table can be found at Attachment A to this report.

9. Statistical tables showing the total number of audit reports with recommendations that
funds be put to better use and the dollar value of such recommendations.

       The required statistical table can be found at Attachment B to this report.

10. A summary of each audit report issued before the commencement of the reporting
period for which no management decision has been made by the end of the reporting period
(including the date and title of each such report), an explanation of the reasons such
management decision has not been made, and a statement concerning the desired timetable
for achieving a management decision on each such report.

       No management decisions fall within this category.

11. A description and explanation of the reasons for any significant revised management
decision made during the reporting period.


_________________________________________________________________
APRIL 1995 - SEPTEMBER 1995                                                             PAGE 13
SEMIANNUAL REPORT   OF THE   INSPECTOR GENERAL              FEDERAL COMMUNICATIONS
COMMISSION


       No management decisions fall within this category.

12. Information concerning any significant management decision with which the Inspector
General is in disagreement.

       No management decisions fall within this category.




_________________________________________________________________
APRIL 1995 - SEPTEMBER 1995                                                          PAGE 14
